APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
IN RICHARDS ET AL. V. OLENS ET AL.

Order of the Supreme Court of Georgia Denying
Motion to Vacate (July 15, 2020) ....................... 1a
Order of the Supreme Court of Georgia Denying
Motion for Reconsideration (July 15, 2020) ...... 2a
Order of the Supreme Court of Georgia Denying
Petition for Certiorari (March 26, 2020) ........... 3a
Order of the Court of Appeals for the
State of Georgia (July 26, 2019) ........................ 4a
Order of the Court of Appeals for the
State of Georgia (July 26, 2019) ........................ 5a
Order of the Court of Appeals for the
State of Georgia (June 12, 2019)........................ 7a
Order of the Court of Appeals Granting
Appellant’s Motion for an Extension of Time
(May 17, 2019) .................................................... 8a
Order of the Court of Appeals for the
State of Georgia (February 27, 2018) ................ 9a
Final Order of the Superior Court of Fulton
County Georgia (November 14, 2016) ............. 10a
Order Denying Motion to Strike and Set Aside
Judgment and Renewed Rule 60 Motion to
Set Aside Judgment for Fraud and Absence
of Jurisdiction (January 12, 2018) ................... 16a

APPENDIX TABLE OF CONTENTS (Cont.)

OPINIONS AND ORDERS IN
RELATED CASE: TRICOLI V. WATTS ET AL.
Order of the Supreme Court of Georgia
(November 7, 2016) .......................................... 18a
Opinion of the Court of Appeals for the
State of Georgia (March 30, 2016) ................... 19a
STATUTORY PROVISIONS
Relevant Statutory Provisions Involved ................ 30a
OTHER DOCUMENT
Plaintiff’s Proposed Order for the Superior Court
of Fulton County Georgia ................................ 42a
Letter from Stephen Humphreys to Georgia
Governor Brian Kemp (November 30, 2020) ... 49a
Memorandum to the Georgia Bar Regarding First
Amendment Retaliation (August 1, 2018) ....... 56a

App.1a
ORDER OF THE SUPREME COURT OF GEORGIA
DENYING MOTION TO VACATE
(JULY 15, 2020)
SUPREME COURT OF GEORGIA
________________________
ANNE RICHARDS ET AL.,
v.
SAM OLENS ET AL.
________________________
Case No. S20C0106
The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
Upon consideration of the Motion to Vacate filed
in this case, it is ordered that it be hereby denied.
All the Justices concur, except Peterson, Warren,
and McMillian, J.J., not participating.
Thèrèse S. Barnes
Clerk

App.2a
ORDER OF THE SUPREME COURT OF GEORGIA
DENYING MOTION FOR RECONSIDERATION
(JULY 15, 2020)
SUPREME COURT OF GEORGIA
________________________
ANNE RICHARDS ET AL.,
v.
SAM OLENS ET AL.
________________________
Case No. S20C0106
Upon consideration of the Motion for Reconsideration filed in this case, it is ordered that it be
hereby denied.
All the Justices concur, except Peterson, Warren,
and McMillian, J.J., not participating.
Thèrèse S. Barnes
Clerk

App.3a
ORDER OF THE SUPREME COURT OF GEORGIA
DENYING PETITION FOR CERTIORARI
(MARCH 26, 2020)
SUPREME COURT OF GEORGIA
________________________
ANNE RICHARDS ET AL.,
v.
SAM OLENS ET AL.
________________________
Case No. S20C0106
The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
The Supreme Court today denied the petition for
certiorari in this case.
Melton, C.J., Nahmias, P.J., and Blackwell, Boggs,
Bethel and Ellington, JJ., concur. Peterson, J., not
participating. Warren, J., disqualified.
Thèrèse S. Barnes
Clerk

App.4a
ORDER OF THE COURT OF APPEALS
FOR THE STATE OF GEORGIA
(JULY 26, 2019)
COURT OF APPEALS OF THE
STATE OF GEORGIA
________________________
ANNE RICHARDS ET AL.,
v.
SAM OLENS ET AL.
________________________
Case No. A19A2010
The Court of Appeals hereby passes the following
order
Upon consideration of the APPELLANT'S motion
TO SUPPLEMENT THE RECORD in the above
styled case, it is ordered that the motion is hereby
DENIED.
Stephen E Castlen
Clerk

App.5a
ORDER OF THE COURT OF APPEALS
FOR THE STATE OF GEORGIA
(JULY 26, 2019)
COURT OF APPEALS OF THE
STATE OF GEORGIA
________________________
ANNE RICHARDS ET AL.,
v.
SAM OLENS ET AL.
________________________
Case No. A19A2010
The Court of Appeals hereby passes the following
order:
In November 2016, the trial court dismissed the
complaint filed by Anne Richards and several others
(hereinafter the “plaintiffs”), attempting to undo the
election of Sam Olens as president of Kennesaw State
University. The plaintiffs filed a motion to strike an
affidavit and motion to set aside the trial court’s
judgment based on fraud and mistake. The trial
court denied the motion, and the plaintiffs filed this
direct appeal. We, however, lack jurisdiction.
Under OCGA § 9-11-60 (d), a judgment may be
set aside based on (1) lack of jurisdiction, (2) fraud,
accident, or mistake by the adverse party, or (3) a
nonamendable defect on the face of the record of
pleadings. Although the motion filed by the plaintiffs
does not include a reference to OCGA § 9-11-60 (d),

App.6a
the substance of a pleading controls over its nomenclature. See Kuriatnyk v. Kuriatnyk, 286 Ga. 589,
590 (690 S.E.2d 397) (2010) (in construing pleadings,
substance controls over nomenclature). An appeal
from an order denying a motion to set aside a judgment
under OCGA § 9-11-60 (d) must be made by application for discretionary review. OCGA § 5-6-35 (a) (8).
The plaintiffs properly filed a discretionary application,
which we denied. See Case No. A18D0324, denied
February 27, 2018. Because that June 12, 2019 denial was an adjudication on the merits, the doctrine of
res judicata bars this direct appeal. See Northwest
Social & Civic Club, Inc. v. Franklin, 276 Ga. 859,
860 (583 S.E.2d 858) (2003); Hook v. Bergen, 286 Ga.
App. 258, 260- 261 (1) (649 S.E.2d 313) (2007). Accordingly, this appeal is hereby DISMISSED.
Stephen E Castlen
Clerk

App.7a
ORDER OF THE COURT OF APPEALS
FOR THE STATE OF GEORGIA
(JUNE 12, 2019)
COURT OF APPEALS OF THE
STATE OF GEORGIA
________________________
ANNE RICHARDS ET AL.,
v.
SAM OLENS ET AL.
________________________
Case No. A19A2010
The Court of Appeals hereby passes the following
order:
Appellants in the above-referenced case have moved
for the record in a separate appeal, Case No.
A19A1071, to be included in the record in this appeal.
However, it does not appear that the record in Case
No. A19A1071, which was transmitted to this Court by
the Clerk of the Superior Court of DeKalb County, was
filed in the Superior Court of Fulton County, where the
above-referenced appeal originated, or, if it was, why
such was not transmitted to this Court by the Clerk of
the Superior Court of Fulton County with the rest of
the record. Accordingly, appellant’s motion to consoledate the record is DENIED.
Stephen E Castlen
Clerk

App.8a
ORDER OF THE COURT OF APPEALS
GRANTING APPELLANT’S MOTION FOR
AN EXTENSION OF TIME
(MAY 17, 2019)
COURT OF APPEALS OF THE
STATE OF GEORGIA
________________________
ANNE RICHARDS ET AL.,
v.
SAM OLENS ET AL.
________________________
Case No. A19A2010
The Court of Appeals hereby passes the following
order:
The APPELLANT'S motion for AN EXTENSION
OF TIME in which to file an enumeration of errors and
brief in the above-styled case is hereby GRANTED until
06/12/2019.
The appellee’s brief shall be filed within 20 days
after the filing of the appellant’s brief.
Stephen E Castlen
Clerk

App.9a
ORDER OF THE COURT OF APPEALS
FOR THE STATE OF GEORGIA
(FEBRUARY 27, 2018)
COURT OF APPEALS OF THE
STATE OF GEORGIA
________________________
LEONARD WITT ET AL.,
v.
SAM OLENS ET AL.
________________________
Case No. A18D0324
LC Numbers: 2016CV282020
The Court of Appeals hereby passes the following
order:
Upon consideration of the Application for Discretionary Appeal, it is ordered that it be hereby DENIED.
Stephen E Castlen
Clerk

App.10a
FINAL ORDER OF THE SUPERIOR COURT OF
FULTON COUNTY GEORGIA
(NOVEMBER 14, 2016)
IN THE SUPERIOR COURT OF
FULTON COUNTY GEORGIA
________________________
LEONARD WITT, ET AL.,

Plaintiffs,
v.
SAM OLENS, ET AL.,

Defendants.
________________________
Civil Action No. 2016-CV-282020
Before: Hon. Tom CAMPBELL,
Superior Court Judge.
This matter is before the Court on Plaintiffs’
request to undo the election of Sam Olens, formerly
the Attorney General for the State of Georgia, by the
Board of Regents (“BOR”) of the University System
of Georgia (“USG”) as President of Kennesaw State
University (“KSU”), a unit of USG. See BOR Policy
2.1 (“Election of Presidents by the Board”), available at
www.usg.edulpolicymanual/section2/C306, last accessed
November 10, 2016.
Plaintiffs initially sought to enjoin Olens from
assuming the office of President of KSU on November

App.11a
1, 2016, but failed to obtain an order preventing
Olens from taking office prior to the first day of his
term as President. This Court granted a rule nisi to
Plaintiffs, setting a hearing for November 7, 2016, to
hear arguments on whether injunctive relief should
issue against Olens, the Chancellor and the Executive
Vice-Chancellor of the University System, the former
interim President of KSU, BOR, and the Governor of
Georgia. A hearing was held on November 7, 2016,
where the parties presented argument on whether
Plaintiffs’ action was barred under the doctrine of
sovereign immunity.1 For the reasons set forth below,
this Court finds that Plaintiffs’ claims against the
named state officials are BARRED by sovereign
immunity, and this case is DISMISSED.
Here, Plaintiffs have sued various state agencies
and officials involved with the election of Olens as
President of KSU, seeking both to undo past official
actions as well as to enjoin them permanently from
carrying out those acts which resulted in Olens’
election to, and assumption of, the office of President
of KSU. Plaintiffs have sought temporary and permanent injunctive relief preventing Olens from vacating
his position as Attorney General and assuming the
presidency of KSU pursuant to his election by BOR,
preventing BOR from electing Olens as President of
1 Plaintiffs had attempted to subpoena a member of the BOR and
current and former employees of USG to the hearing on November 7, 2016. The witnesses did not reside in Fulton County,
however, and the subpoenas were invalid due to Plaintiffs’ failure to comply with the provisions of O.C.G.A. § 24-13-25. Plaintiffs moved to continue the entirety of the hearing; instead, the
Court heard argument on whether Plaintiffs’ claims were
barred by sovereign immunity which would negate the need to
schedule a second evidentiary hearing on Plaintiffs’ claims.

App.12a
KSU, requiring Governor Deal to appoint a special
attorney general to investigate financial wrongdoing
at KSU predating Olens’ election as President of
KSU,2 preventing the Chancellor and the chair of
BOR from exercising their discretion under Board
policy to institute a national search for a President of
KSU,3 an award of attorneys’ fees and costs under
the RICO Act, and an award of damages, including
treble and punitive damages, under the RICO Act.
The Georgia Constitution expressly preserves the
state’s sovereign immunity and makes clear that it
“can only be waived by an Act of the General Assembly
which specifically provides that sovereign immunity
is waived and the extent of such waiver.” GA. CONST.
Art. I, Sec. II, Par. IX. When the state or its officials
raise as a defense that an action is barred by the
doctrine of sovereign immunity, the court must inquire
into that matter as the existence of sovereign immunity
deprives a court of subject matter jurisdiction over
2 Plaintiffs prayed for [a]n injunction requiring Governor Nathan
Deal to observe the authority of OCGA 45-1-8 and appoint a
politically objective special attorney general to conduct an independent investigation of financial wrongdoing at KSU.” Plaintiffs Complaint at unnumbered paragraph on p.26. Setting
aside that there is no code section O.C.G.A. § 45-1-8, Plaintiffs’
prayer for an injunction against the Governor, even if it were
based on an actual code provision, is barred by sovereign immunity
absent a specific showing by Plaintiffs that the General Assembly
has waived sovereign immunity as to that action against the
Governor. As Plaintiffs have failed to establish any such waiver
for their non-existent statutory remedy, Plaintiffs’ claims against
the Governor are barred by sovereign immunity.
3 See BOR Policy 2.2 (“Procedure for Selection of a President for
USG Institutions”), available at www.usg.edu/policymanual/
section2/C307, last accessed November 10, 2016.

App.13a
the claims at issue. Coosa Valley Tech. College v. West,
299 Ga. App. 171, 174 (2009). Waiver of sovereign
immunity “must be established by the party seeking
to benefit from that waiver.” Id. Accordingly, Plaintiffs must establish affirmatively that the state has
waived sovereign immunity for their case to remain
viable. Dep’t of Transp. v. Smith, 314 Ga.App. 412,
413 (2012).
The Supreme Court has set out that the sovereign
immunity language contained within Article I, Section
II, Paragraph IX of the Georgia Constitution is not
limited to actions for monetary damages. The constitutional reservation of the state’s sovereign immunity
serves as a bar to actions for injunctive relief against
the state or its officials. See Dept of Natural Resources
v. Ctr. for a Sustainable Coast, Inc., 294 Ga. 593, 603
(2014). The Constitution reserves the authority to
waive sovereign immunity to the General Assembly.
Id. at 598. The waiver of that sovereign immunity
must be clear and specific; it is not enough to find that
the General Assembly has enacted a statutory remedy
that could theoretically be applied against both state
and private actors. See generally Ctr. for a Sustainable
Coast, Inc., 294 Ga. 593 (neither general provision
authorizing courts to grant injunctive relief in Chapter
5 of Title 9 nor O.C.G.A. § 12-5-245 allowing injunctions against public nuisances authorized injunctive
relief against the state or its officials); Olvera v. University System of Georgia’s Board of Regents, 298 Ga.
425 (2016) (general provision authorizing courts to
grant declaratory relief in Chapter 4 of Title 9 did
not permit a declaratory judgment action to proceed
against BOR). In the absence of plain language
within a statute that waives governmental immunity,

App.14a
that action will be barred by sovereign immunity.
Ctr. for a Sustainable Coast, Inc., 294 Ga. at 603.
Plaintiffs’ pleadings set out that the injunctive
relief that they seek “is expressly authorized by the
Georgia RICO Act OCGA § 16-14-1 et seq.” Plaintiffs’
Complaint at ¶ 57. The argument that the Georgia
RICO Act, O.C.G.A. §§ 16-14-1 through 16-14-12,
(“RICO Act”) serves as a waiver of sovereign immunity,
however, has been soundly rejected by a seven judge
decision of the Court of Appeals. See Tricoli v. Watts,
336 Ga. App. 837 (2016), cert. denied November 7,
2016, in S16C1469.
In the Tricoli case, the former President of Georgia
Perimeter College sued BOR, individual members of
the BOR, Georgia Perimeter College, and the thenAttorney General for fraud, breach of contract, and
violations of the RICO Act. Id. Plaintiffs claimed that
the provisions of the RICO Act operated as a waiver
of sovereign immunity. Id. at 840. While the Court of
Appeals found that to be an “imaginative theory,” the
Court rejected the argument as precisely that—
“imagination.” Id. The Court of Appeals found that
nothing in the RICO Act contained any expression of
a waiver of sovereign immunity. Id. As such, Plaintiffs’ claims for relief under the various remedies set
out within the RICO Act were barred by sovereign
immunity. Id.
This Court is bound by the Court of Appeals
analysis in the Tricoli case. Even absent the clear
language in the Tricoli case that the RICO Act contains no waiver of sovereign immunity, it is clear on
examining the statutory language of the RICO Act
that there is no language therein sufficient to meet
the constitutional threshold for finding a waiver of

App.15a
sovereign immunity “which specifically provides that
sovereign immunity is thereby waived and the extent
of such waiver.” GA. CONST. Art. I, Sec. II, Par. IX(e);
Johnson v. Dep’t of Human Resources, 278 Ga. 714,
715 (2004). As such, Plaintiffs have failed to meet
their threshold burden of establishing that there has
been a waiver of sovereign immunity that would
permit the continuation of their litigation under the
RICO Act to undo a set of already completed acts,
including the election of Olens as President of KSU,
and to collect damages and fees.
Plaintiffs’ claims are BARRED by sovereign
immunity. This action is therefore DISMISSED.
SO ORDERED this 14th day of November, 2016.
/s/ Tom Campbell
Judge Superior Court of
Fulton County
Atlanta Judicial Circuit

App.16a
ORDER DENYING MOTION TO STRIKE AND
SET ASIDE JUDGMENT AND RENEWED RULE
60 MOTION TO SET ASIDE JUDGMENT FOR
FRAUD AND ABSENCE OF JURISDICTION
(JANUARY 12, 2018)
IN THE SUPERIOR COURT OF
FULTON COUNTY GEORGIA
________________________
LEONARD WITT, SUSAN RAINES,
ANNE RICHARDS, SCOTT RITCHEY,
NICKI AYON, VIRGINIA BELLEW, ERIN ANN
EXUM, LANE HUNTER, AMANDA HARRELL,
BRIAN LAWLER, JESSICA BOUDREAUX,
TIFFANY GRIFF’M, VALERIE DRIBBLE JOSHUA
GOODWIN, SARAH LARKIN, ELIZABETH
GORDON, DR. BEN WILLIAMS, AND THE COBB
CHAPTER LEADERSHIP CONFERENCE OF THE
SOUTHERN CHRISTIAN LEADERSHIP
CONFERENCE,

Plaintiffs,
v.
SAM OLENS, THE ATTORNEY GENERAL
OF GEORGIA, JOHN DOES, HANK HUCKABY
STEVE WRIGLEY, HOUSTON DAVIS, JOHN
FUCHKO, THE BOARD OF REGENTS OF THE
UNIVERSITY SYSTEM OF GEORGIA,
AND GOVERNOR NATHAN DEAL,

Defendants.
________________________

App.17a
Civil Action No. 2016-CV-282020
Before: Hon. Tom CAMPBELL,
Superior Court Judge.
This matter is before the Court on Plaintiffs Motion
to Strike and Set Aside Judgment and Renewed Rule
60 Motion to Set Aside Judgment for Fraud and
Absence of Jurisdiction. Having considered the Motion,
Renewed Motion and Supplement to Rule 60 Motion
to Set Aside Judgment for Fraud and the entire
record and applicable authority, the Court hereby
denies the motions.
SO ORDERED this 12th day of January, 2018.
/s/ Tom Campbell
Judge Superior Court of
Fulton County
Atlanta Judicial Circuit

App.18a
ORDER OF THE SUPREME COURT OF GEORGIA
(NOVEMBER 7, 2016)
SUPREME COURT OF GEORGIA
________________________
ANTHONY S. TRICOLI,
v.
ROB WATTS ET AL.
________________________
Case No. S16C1469
Court of Appeals Case No. A15A2256
The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
The Supreme Court today denied the petition for
certiorari in this case. All the Justices concur.
Thèrèse S. Barnes
Clerk

App.19a
OPINION OF THE COURT OF APPEALS
FOR THE STATE OF GEORGIA
(MARCH 30, 2016)
COURT OF APPEALS OF THE
STATE OF GEORGIA
________________________
TRICOLI,
v.
WATTS ET AL.
________________________
Case No. A15A2256
Before: BARNES, P.J., ELLINGTON, P.J.,
DILLARD, McFADDEN, and BRANCH, JJ.
ANDREWS, Presiding Judge.
Anthony Tricoli served as President of Georgia
Perimeter College (GPC) for six years until he was
blamed for a $16 million budget shortfall and resigned.
He subsequently sued numerous individuals affiliated
with GPC, the Board of Regents of the University
System of Georgia, Board of Regents members, and
the Georgia Attorney General for fraud, breach of
contract, and violations of the Georgia Racketeer
Influenced and Corrupt Organizations Act (RICO). The
trial court granted the defendants’ motion to dismiss,
and this appeal followed.
On appeal, Tricoli contends the trial court erred by:
(1) finding there was no enforceable written employment contract between Tricoli and the Board of Regents;

App.20a
(2) concluding that the Georgia Tort Claims Act (GTCA),
OCGA § 50-21-20 et seq., barred his RICO claims; (3)
rejecting his claims for fraud, extortion, and intentional
infliction of emotional distress; (4) failing to consider
his claims under the Open Records Act; (5) ignoring his
abusive litigation claim; and (6) ignoring his motion
for preliminary injunction. We find the trial court
thoroughly addressed all the issues in this case and
correctly concluded that Tricoli’s claims failed under
the Georgia Tort Claims Act (GTCA) and the doctrine
of sovereign immunity.
1. Initially, we note that the standard of review
applicable in this appeal is the one for review of a
decision on a motion for summary judgment. Although
the appeal is from the grant of a motion to dismiss,
Tricoli’s submission of documentary evidence in
response to the motion to dismiss constituted, in effect,
a request to convert the motion into one for summary
judgment and waived the notice requirement for such
a conversion. See Gaddis v. Chatsworth Health Care
Center, 282 Ga.App. 615, 617 (639 S.E.2d 399) (2006);
Bd. of Regents of the Univ. System of Ga. v. Barnes,
322 Ga.App. 47, 49(1) (743 S.E.2d 609) (2013).
(Exhibits attached to the pleadings would not operate
to convert a motion to dismiss into a motion for summary judgment, Gaddis, supra, but because a motion
to dismiss is not a pleading under OCGA § 9-11-7(a),
any documents submitted in conjunction with such a
motion are outside the pleadings.)
Where a defendant, who would not bear the
burden of proof at trial, moves for summary judgment
and shows an absence of evidence to support any
essential element of the plaintiff’s case, “the nonmoving
party cannot rest on its pleadings, but rather must

App.21a
point to specific evidence giving rise to a triable issue.”
Cowart v. Widener, 287 Ga. 622, 623(1) (697 S.E.2d
779) (2010). But when we review a grant or denial of
summary judgment, we must construe the evidence
in the light most favorable to the nonmovant. Home
Builders Assn. of Savannah v. Chatham County, 276
Ga. 243, 245(1) (577 S.E.2d 564) (2003).
2. “[T]he defense of sovereign immunity is waived
as to any action ex contract for the breach of any
written contract entered into by the state or its
departments and agencies.” (Punctuation and footnote
omitted.) Bd. of Regents of the Univ. System of Ga. v.
Barnes, 322 Ga.App. 47, 49(2) (743 S.E.2d 609) (2013).
Tricoli contends the trial court erred in concluding
there was no valid written employment contract that
effectuated a waiver of sovereign immunity.
However, in moving to dismiss the action, the
defendants originally showed the absence of a written
contract of employment, which was critical to Tricoli’s
ability to show a waiver of sovereign immunity. The
trial court held a hearing on the motion on September
22, 2014. Subsequently, on October 10, 2014, Tricoli
submitted an August 7, 2006 letter from the Chancellor
of the Board of Regents offering him the GPC
presidency, which he claimed constituted a written
employment contract. That letter stated:
It is my pleasure to offer you an appointment
to the presidency of Georgia Perimeter
College, subject to the policy and terms of
the Board of Regents and the approval of
the Board of Regents of the University
System of Georgia at its regular meeting on
August 9, 2006. The appointment would be
effective on October 1, 2006. The total

App.22a
annualized compensation for the position is
$190,000 ․ . . . To accept the position, please
return this letter with your signature.
The defendants objected to the consideration of
that letter on the grounds Tricoli had not properly
notified them of the submission, and also on the
grounds the letter did not constitute a valid contract
of employment. On November 21, 2014, “[a]fter consideration of the evidence, counsel’s argument, and
applicable statutory and case law,” the trial court
granted the motion to dismiss.
Assuming arguendo the letter created a contract
of employment under this Court’s ruling in Bd. of
Regents of the Univ. System of Ga. v. Doe , 278 Ga.
App. 878, 881(1) (630 S.E.2d 85) (2006), it still didn’t
save Tricoli’s breach of contract claim. The letter, which
only specifies a salary and a starting date subject to
the approval and policies of the Board of Regents,
hardly supports a breach of contract claim. “An
employment contract containing no definite term of
employment is terminable at the will of either party,
and will not support a cause of action against the
employer for wrongful termination.” Burton v. John
Thurmond Constr. Co., 201 Ga.App. 10 (410 S.E.2d 137)
(1991).
Tricoli contends his alleged written contract was
subject to the Board of Regent’s written policies and
that the relevant policy, as provided by the Board in
its answer to a request for admission, supplied sufficient
terms to supplement the letter and form an enforceable
employment contract. The text of that policy statement
relied upon by Tricoli stated as follows:
If the Board declines to re-appoint a president,

App.23a
it shall notify the president, through the
Chancellor, of such decision immediately
following the Board’s regularly scheduled
April [later amended to May] meeting. A
decision by the Board not to re-appoint a
president is not subject to appeal.
The quoted policy does not provide a definite term
for the contract, a promise of employment, a specific
deadline for providing the notice, or a provision that
Tricoli’s employment would be automatically extended
for a year or some other period in the event the
Board failed to provide notice of re-appointment within
a certain time. As such, the policy in no way converts
the August 2006 letter into an employment contract
that is not terminable at will.
Further, Tricoli himself terminated any employment contract he may have had when he resigned his
position as president of GPC. There was no demonstrable breach of contract by any of the defendants,
and Tricoli’s contention that the defendants forced him
to resign asserted a tort, not a contract breach. Lastly,
the Board of Regents’ failure to renew Tricoli’s contract or offer him a contract for a different position
provided no basis for avoiding the application of sovereign immunity. See, e.g., Liberty County School Dist.
v. Halliburton, 328 Ga.App. 422 (762 S.E.2d 138) (2014).
As Tricoli failed to show an enforceable employment contract, there was no waiver of sovereign
immunity on the basis of a written contract.
3. All of Tricoli’s tort claims were barred by the
Georgia Tort Claims Act. OCGA § 50-21-25(a) provides
that the GTCA “constitutes the exclusive remedy for
any tort committed by a state officer or employee . . .

App.24a
while acting within the scope of his or her official
duties or employment․” . . . OCGA § 50-21-23 waives
sovereign immunity for torts of state officers and
employees, but that waiver is subject to the exceptions set forth in OCGA § 50-21-24. Virtually all of the
tortious conduct Tricoli complains of falls within those
listed exceptions, and so his claims based on that
conduct are barred.
4. Tricoli also asserted a claim under the Georgia
RICO Act, OCGA § 16-14-1 et seq., based on the same
conduct that predicated his tort claims. It is an imaginative theory of recovery to assert against the State
itself, but that is about all it is—imagination. The
Georgia RICO Act does not express any waiver of
sovereign immunity. As noted above, OCGA § 50-2125(a) clearly states that the GTCA is the exclusive
remedy for any torts committed by state officers and
employees. Because the GTCA is the exclusive remedy,
the Georgia RICO Act cannot be invoked as an alternate remedy or waiver of sovereign immunity for
tortious conduct of state officers and employees.

Colon v. Fulton County , 294 Ga. 93, 95(1) (751
S.E.2d 307) (2013), relied upon by Tricoli, does not
support finding otherwise. Colon only involved the
Georgia whistleblower statute, OCGA § 45-1-4, which
more clearly contained a waiver of sovereign immunity,
and did not involve any other statute that was
designated as the exclusive remedy where sovereign
immunity is at issue.
In conclusion, because Tricoli failed to establish
a written enforceable employment contract that would
avoid sovereign immunity, and because Tricoli’s tort
claims were exclusively governed and barred by the

App.25a
GTCA, the trial court properly granted the defendants’
motion.
Judgment affirmed.
BARNES, P.J., ELLINGTON, P.J., DILLARD,
McFADDEN, and BRANCH, JJ., concur.

App.26a
MILLER, Presiding Judge, dissenting.
I respectfully dissent from the majority’s conclusion
that the trial court properly granted the defendants’
motion to dismiss because the trial court did not
convert the motion to dismiss into a motion for summary judgment, and the Georgia Tort Claims Act is
not the exclusive remedy where the RICO statute
created a separate waiver of sovereign immunity.
1. The majority concludes that the trial court
converted the motion to dismiss into a motion for
summary judgment. The trial court, however, could
not do so without providing Tricoli with notice. Bonner
v. Fox, 204 Ga.App. 666, 667 (420 S.E.2d 1992).
Instead, the trial court granted the defendant’s motion
to dismiss, and this Court should review the trial
court’s order consistent with that standard of review.1
2. The issue of whether the Georgia RICO statute
provides a waiver of immunity is a question of statutory interpretation and a matter of first impression.
[a] statute draws it[s] meaning, of course,
from its text. When we read the statutory
text, we must presume that the General
Assembly meant what it said and said what
it meant, and so, we must read the statutory
text in its most natural and reasonable way,
as an ordinary speaker of the English language would. The common and customary
1 We review de novo a trial court's decision to grant a motion to
dismiss. Liberty County School Dist. v. Halliburton, 328 Ga.App.
422, 423 (762 S.E.2d 138) (2014). In doing so, we construe the
pleadings in the light most favorable to the appellant, and we
resolve any doubts in the appellant's favor. Ewing v. City of
Atlanta, 281 Ga. 652, 653(2) (642 S.E.2d 100) (2007).

App.27a
usages of the words are important, but so is
their context. For context, we may look to the
other provisions of the same statute, the
structure and history of the whole statute,
and the other law—constitutional, statutory,
and common law alike—that forms the legal
background of the statutory provision in
question.
(Citations and punctuation omitted.) Tibbles v.
Teachers Retirement System of Ga., 297 Ga. 557, 558(1)
(775 S.E.2d 527) (2015).
The RICO Act makes it unlawful for “any person
employed by or associated with any enterprise to
conduct or participate in, directly or indirectly, such
enterprise through a pattern of racketeering activity.”
OCGA § 16-14-4(b). The definition of “enterprise”
includes governmental entities. OCGA § 16-14-3(3).
Moreover, the statute specifically provides that “[a]ny
aggrieved person” may initiate a civil action for
treble damages and/or injunctive relief. OCGA § 1614-6(b), (c).
Importantly, nothing requires the Legislature to
“use specific ‘magic words’ such as ‘sovereign immunity
is hereby waived’ in order to create a specific statutory
waiver of sovereign immunity.” Colon v. Fulton County,
294 Ga. 93, 95(1) (751 S.E.2d 307) (2013). In drafting
the RICO Act, the legislature made its intent clear:
It is the intent of the General Assembly that
[the RICO statute] apply to an interrelated
pattern of criminal activity motivated by
or the effect of which is pecuniary gain
or economic or physical threat or injury.
This chapter shall be liberally construed to

App.28a
effectuate the remedial purposes embodied
in its operative provisions.
OCGA § 16-14-2(b).
The RICO statute includes government entities
in its definition of enterprise, and it specifically provides a private individual with a civil remedy for
RICO Act violations. These provisions, when viewed
together, create a waiver of sovereign immunity.2 To
read the RICO Act as the trial court and the majority
do would result in a violation of statutory interpretation
and led to a nonsensical result. See Colon, supra, 294
Ga. at 96(1).
The majority argues that the Georgia Tort Claims
Act is the exclusive remedy for Tricoli’s claims and
decides the case on this basis. See OCGA § 51-2125(a). I beg to differ, however, with the trial court’s
and majority’s conclusion that Tricoli cannot overcome
the bar of sovereign immunity because the language
of the RICO statute itself indicates otherwise. Imaginative3 or not, it is irrelevant whether Tricoli will
prevail ultimately on the merits of his RICO allegations. The only issue before this Court now is whether
2 Moreover, in other contexts, the Georgia Supreme Court has
found language similar to that found in the RICO Act sufficient
to waive immunity. See Colon, supra, 294 Ga.App. at 95–96(1).
Specifically, in Colon, the Supreme Court concluded that the whistleblower statute, OCGA § 45-1-4, waived sovereign immunity
with language that “[a] public employee may institute a civil
action[.]” As the Supreme Court explained, “in order for the statute
to have any meaning at all here, it can only be interpreted as
creating a waiver of sovereign immunity.” (Citation omitted.)
Id.
3 See majority op. at 7(4).

App.29a
he has pled claims that can overcome sovereign
immunity at this stage of the litigation. Tricoli has
certainly done so.
If Tricoli had alleged only isolated instances of
tortious conduct, the Georgia Tort Claims Act would
have barred his claims because the General Assembly,
in drafting the RICO Act, did not intend to cover
“isolated incidents of misdemeanor conduct.” OCGA
§ 16-14-2(b) (emphasis supplied). Unlike the Georgia
Tort Claims Act, however, the RICO Act is designed
to prohibit (1) a pattern of activity, (2) intended to
threaten or cause economic harm, even where that
pattern involves tortious actions. See id. This is
exactly what Tricoli has alleged in his RICO claim—
a pattern of tortious and criminal acts designed to
threaten him with and inflict economic harm upon
him. This Court cannot overlook a remedy the legislature, in its wisdom, saw fit to create. Therefore, I
conclude that the Georgia Tort Claims Act is not the
exclusive remedy where, as in this case, the legislature
intended for the RICO Act to provide a separate
waiver of sovereign immunity. Accordingly, I dissent
from the majority’s opinion.

App.30a
RELEVANT STATUTORY PROVISION INVOLVED
O.C.G.A. § 5-6-34
Appeal and Error
(a) Appeals may be taken to the Supreme Court
and the Court of Appeals from the following
judgments and rulings of the superior courts,
the Georgia State-wide Business Court, the constitutional city courts, and such other courts or
tribunals from which appeals are authorized by
the Constitution and laws of this state:
(1) All final judgments, that is to say, where
the case is no longer pending in the court
below, except as provided in Code Section 56-35;
(2) All judgments involving applications for discharge in bail trover and contempt cases;
(3) All judgments or orders directing that an
accounting be had;
(4) All judgments or orders granting or refusing
applications for receivers or for interlocutory
or final injunctions;
(5) All judgments or orders granting or refusing
applications for attachment against fraudulent debtors;
(6) Any ruling on a motion which would be dispositive if granted with respect to a defense
that the action is barred by Code Section 1611-173;
(7) All judgments or orders granting or refusing
to grant mandamus or any other extraordi-

App.31a
nary remedy, except with respect to temporary
restraining orders;
(8) All judgments or orders refusing applications
for dissolution of corporations created by
the superior courts;
(9) All judgments or orders sustaining motions
to dismiss a caveat to the probate of a will;
(10) All judgments or orders entered pursuant to
subsection (c) of Code Section 17-10-6.2;
(11) All judgments or orders in child custody cases
awarding, refusing to change, or modifying
child custody or holding or declining to hold
persons in contempt of such child custody
judgment or orders;
(12) All judgments or orders entered pursuant to
Code Section 35-3-37; and
(13) All judgments or orders entered pursuant to
Code Section 9-11-11.1.
(b) Where the trial judge in rendering an order,
decision, or judgment, not otherwise subject to
direct appeal, including but not limited to the
denial of a defendant’s motion to recuse in a
criminal case, certifies within ten days of entry
thereof that the order, decision, or judgment is
of such importance to the case that immediate
review should be had, the Supreme Court or
the Court of Appeals may thereupon, in their
respective discretions, permit an appeal to be
taken from the order, decision, or judgment if
application is made thereto within ten days after
such certificate is granted. The application shall
be in the nature of a petition and shall set forth

App.32a
the need for such an appeal and the issue or
issues involved therein. The applicant may, at
his or her election, include copies of such parts
of the record as he or she deems appropriate, but
no certification of such copies by the clerk of the
trial court shall be necessary. The application
shall be filed with the clerk of the Supreme
Court or the Court of Appeals and a copy of the
application, together with a list of those parts of
the record included with the application, shall
be served upon the opposing party or parties in
the case in the manner prescribed by Code
Section 5-6-32, except that such service shall be
perfected at or before the filing of the application. The opposing party or parties shall have
ten days from the date on which the application
is filed in which to file a response. The response
may be accompanied by copies of the record in
the same manner as is allowed with the application. The Supreme Court or the Court of Appeals
shall issue an order granting or denying such an
appeal within 45 days of the date on which the
application was filed. Within ten days after an
order is issued granting the appeal, the applicant, to secure a review of the issues, may file a
notice of appeal as provided in Code Section 5-6-37.
The notice of appeal shall act as a supersedeas
as provided in Code Section 5-6-46 and the procedure thereafter shall be the same as in an appeal
from a final judgment.
(c) In criminal cases involving a capital offense
for which the death penalty is sought, a hearing
shall be held as provided in Code Section 17-1035.2 to determine if there shall be a review of

App.33a
pretrial proceedings by the Supreme Court prior
to a trial before a jury. Review of pretrial proceedings, if ordered by the trial court, shall be
exclusively as provided by Code Section 17-1035.1 and no certificate of immediate review shall
be necessary.
(d) Where an appeal is taken under any provision of subsection (a), (b), or (c) of this Code
section, all judgments, rulings, or orders rendered
in the case which are raised on appeal and
which may affect the proceedings below shall be
reviewed and determined by the appellate court,
without regard to the appealability of the judgment, ruling, or order standing alone and without
regard to whether the judgment, ruling, or order
appealed from was final or was appealable by
some other express provision of law contained in
this Code section, or elsewhere. For purposes of
review by the appellate court, one or more judgments, rulings, or orders by the trial court held to
be erroneous on appeal shall not be deemed to
have rendered all subsequent proceedings nugatory; but the appellate court shall in all cases
review all judgments, rulings, or orders raised on
appeal which may affect the proceedings below
and which were rendered subsequent to the first
judgment, ruling, or order held erroneous. Nothing
in this subsection shall require the appellate
court to pass upon questions which are rendered
moot.
(e) Where an appeal is taken pursuant to this
Code section for a judgment or order granting
nonmonetary relief in a child custody case, such
judgment or order shall stand until reversed or

App.34a
modified by the reviewing court unless the trial
court states otherwise in its judgment or order.
O.C.G.A. § 5-6-35
Cases requiring application for appeal; contents, filing,
and service of application; exhibits; response by
opposing party; issuance of appellate court order
regarding appeal; procedure; supersedeas; jurisdiction
of appeal
(a) Appeals in the following cases shall be taken
as provided in this Code section:
(1) Appeals from decisions of the superior courts
reviewing decisions of the State Board of
Workers’ Compensation, the State Board of
Education, auditors, state and local administrative agencies, and lower courts by certiorari or de novo proceedings; provided, however, that this provision shall not apply to
decisions of the Public Service Commission
and probate courts and to cases involving
ad valorem taxes and condemnations;
(2) Appeals from judgments or orders in divorce,
alimony, and other domestic relations cases
including, but not limited to, granting or
refusing a divorce or temporary or permanent
alimony or holding or declining to hold
persons in contempt of such alimony judgment or orders;
(3) Appeals from cases involving distress or
dispossessory warrants in which the only
issue to be resolved is the amount of rent
due and such amount is $2,500.00 or less;

App.35a
(4) Appeals from cases involving garnishment
or attachment, except as provided in paragraph (5) of subsection (a) of Code Section 56-34;
(5) Appeals from orders revoking probation;
(5.1) Appeals from decisions of superior
courts reviewing decisions of the Sexual
Offender Registration Review Board;
(5.2) Appeals from decisions of superior courts
granting or denying petitions for release
pursuant to Code Section 42-1-19;
(6) Appeals in all actions for damages in which
the judgment is $10,000.00 or less;
(7) Appeals, when separate from an original
appeal, from the denial of an extraordinary
motion for new trial;
(8) Appeals from orders under subsection (d) of
Code Section 9-11-60 denying a motion to
set aside a judgment or under subsection (e)
of Code Section 9-11-60 denying relief upon
a complaint in equity to set aside a judgment;
(9) Appeals from orders granting or denying
temporary restraining orders;
(10) Appeals from awards of attorney’s fees or
expenses of litigation under Code Section 915-14;
(11) Appeals from decisions of the state courts
reviewing decisions of the magistrate courts
by de novo proceedings so long as the subject

App.36a
matter is not otherwise subject to a right of
direct appeal; and
(12) Appeals from orders terminating parental
rights.
(b) All appeals taken in cases specified in
subsection (a) of this Code section shall be by
application in the nature of a petition enumerating
the errors to be urged on appeal and stating why
the appellate court has jurisdiction. The application shall specify the order or judgment being
appealed and, if the order or judgment is interlocutory, the application shall set forth, in addition to the enumeration of errors to be urged, the
need for interlocutory appellate review.
(c) The applicant shall include as exhibits to the
petition a copy of the order or judgment being
appealed and should include a copy of the
petition or motion which led directly to the order
or judgment being appealed and a copy of any
responses to the petition or motion. An applicant
may include copies of such other parts of the
record or transcript as he deems appropriate. No
certification of such copies by the clerk of the
trial court shall be necessary in conjunction with
the application.
(d) The application shall be filed with the clerk
of the Supreme Court or the Court of Appeals
within 30 days of the entry of the order, decision,
or judgment complained of and a copy of the
application, together with a list of those parts of
the record included with the application, shall
be served upon the opposing party or parties as
provided by law, except that the service shall be

App.37a
perfected at or before the filing of the application. When a motion for new trial, a motion in
arrest of judgment, or a motion for judgment
notwithstanding the verdict has been filed, the
application shall be filed within 30 days after
the entry of the order granting, overruling, or
otherwise finally disposing of the motion.
(e) The opposing party or parties shall have ten
days from the date on which the application is
filed in which to file a response. The response
may be accompanied by copies of the record in
the same manner as is allowed with the application. The response may point out that the decision of the trial court was not error, or that the
enumeration of error cannot be considered on
appeal for lack of a transcript of evidence or for
other reasons.
(f) The Supreme Court or the Court of Appeals
shall issue an order granting or denying such an
appeal within 30 days of the date on which the
application was filed.
(g) Within ten days after an order is issued
granting the appeal, the applicant, to secure a
review of the issues, shall file a notice of appeal
as provided by law. The procedure thereafter
shall be the same as in other appeals.
(h) The filing of an application for appeal shall
act as a supersedeas to the extent that a notice
of appeal acts as supersedeas.
(i) This Code section shall not affect Code Section
9-14-52, relating to practice as to appeals in
certain habeas corpus cases.

App.38a
(j) When an appeal in a case enumerated in
subsection (a) of Code Section 5-6-34, but not in
subsection (a) of this Code section, is initiated by
filing an otherwise timely application for permission to appeal pursuant to subsection (b) of this
Code section without also filing a timely notice
of appeal, the appellate court shall have jurisdiction to decide the case and shall grant the application. Thereafter the appeal shall proceed as
provided in subsection (g) of this Code section.
O.C.G.A. § 9-11-60
Relief from judgments
(a) Collateral attack. A judgment void on its face
may be attacked in any court by any person. In
all other instances, judgments shall be subject to
attack only by a direct proceeding brought for
that purpose in one of the methods prescribed
in this Code section.
(b) Methods of direct attack. A judgment may be
attacked by motion for a new trial or motion to
set aside. Judgments may be attacked by motion
only in the court of rendition.
(c) Motion for new trial. A motion for new trial
must be predicated upon some intrinsic defect
which does not appear upon the face of the
record or pleadings.
(d) Motion to set aside. A motion to set aside may
be brought to set aside a judgment based upon:
(1) Lack of jurisdiction over the person or the
subject matter;

App.39a
(2) Fraud, accident, or mistake or the acts of the
adverse party unmixed with the negligence
or fault of the movant; or
(3) A nonamendable defect which appears upon
the face of the record or pleadings. Under
this paragraph, it is not sufficient that the
complaint or other pleading fails to state a
claim upon which relief can be granted,
but the pleadings must affirmatively show
no claim in fact existed.
(e) Complaint in equity. The use of a complaint
in equity to set aside a judgment is prohibited.
(f) Procedure; time of relief. Reasonable notice
shall be afforded the parties on all motions.
Motions to set aside judgments may be served by
any means by which an original complaint may
be legally served if it cannot be legally served as
any other motion. A judgment void because of
lack of jurisdiction of the person or subject matter
may be attacked at any time. Motions for new
trial must be brought within the time prescribed
by law. In all other instances, all motions to set
aside judgments shall be brought within three
years from entry of the judgment complained of.
(g) Clerical mistakes. Clerical mistakes in judgments, orders, or other parts of the record and
errors therein arising from oversight or omission
may be corrected by the court at any time of its
own initiative or on the motion of any party and
after such notice, if any, as the court orders.
(h) Law of the case rule. The law of the case rule
is abolished; but generally judgments and orders
shall not be set aside or modified without just

App.40a
cause and, in setting aside or otherwise modifying judgments and orders, the court shall consider
whether rights have vested thereunder and
whether or not innocent parties would be injured
thereby; provided, however, that any ruling by
the Supreme Court or the Court of Appeals in a
case shall be binding in all subsequent proceedings in that case in the lower court and in the
Supreme Court or the Court of Appeals as the
case may be.
O.C.G.A. § 16-14-6(c)
Available Civil Remedies
(c) Any person who is injured by reason of any
violation of Code Section 16-14-4 shall have a
cause of action for three times the actual damages
sustained and, where appropriate, punitive
damages. Such person shall also recover attorneys’ fees in the trial and appellate courts and
costs of investigation and litigation reasonably
incurred. The defendant or any injured person
may demand a trial by jury in any civil action
brought pursuant to this Code section.
O.C.G.A. § 45-15-18
Governor may direct Attorney General to conduct
investigations of departments, state officials or
employees or entities dealing with state; filing and
prosecution of actions; appointment of special attorney
general
The Governor may at any time direct the Attorney General to conduct an investigation into the
affairs of any department of the state or into the
official conduct of any state official or employee

App.41a
or into the affairs of any person, firm, or corporation dealing with the state. The Governor may
at any time direct the Attorney General to file
and prosecute criminal actions and civil recovery
actions in the name of the state against any
official, person, firm, or corporation which violates
any criminal or civil statute while dealing with
or for the state, which violation results in loss,
damage, or injury to the state. In the event the
Attorney General refuses to take or file such
action within a reasonable time after having been
directed by the Governor to do so, the Governor
is authorized to appoint a special attorney general
to carry out the requirements of law provided in
this Code section.

App.42a
PLAINTIFF’S PROPOSED ORDER
FOR THE SUPERIOR COURT OF
FULTON COUNTY GEORGIA
IN THE SUPERIOR COURT OF
FULTON COUNTY GEORGIA
________________________
LEONARD WITT, SUSAN RAINES,
ANNE RICHARDS, SCOTT RITCHEY,
NICKI AYON, VIRGINIA BELLEW, ERIN ANN
EXUM, LANE HUNTER, AMANDA HARRELL,
BRIAN LAWLER, JESSICA BOUDREAUX,
TIFFANY GRIFF’M, VALERIE DRIBBLE JOSHUA
GOODWIN, SARAH LARKIN, ELIZABETH
GORDON, DR. BEN WILLIAMS, AND THE COBB
CHAPTER LEADERSHIP CONFERENCE OF THE
SOUTHERN CHRISTIAN LEADERSHIP
CONFERENCE,

Plaintiffs,
v.
SAM OLENS, THE ATTORNEY GENERAL
OF GEORGIA, JOHN DOES, HANK HUCKABY
STEVE WRIGLEY, HOUSTON DAVIS, JOHN
FUCHKO, THE BOARD OF REGENTS OF THE
UNIVERSITY SYSTEM OF GEORGIA,
AND GOVERNOR NATHAN DEAL,

Defendants.
________________________
Civil Action No. 2016-CV-282020

App.43a
Jury Trial Demanded
Before: Hon. Tom CAMPBELL,
Superior Court Judge.
This cause comes before the Court on Plaintiffs’
motion for injunctive relief and the Attorney General’s
contention, as threshold matter, that Plaintiffs’ claims
are barred by sovereign immunity. For the reasons
stated herein, the Court finds that sovereign immunity
does not bar the relief requested by Plaintiffs because,
in the Georgia RICO Act, OCGA 16-14-1 et seq. (“the
Act”), the legislature expressly waived sovereign
immunity for injunctive relief. The statute, which is
not ambiguous, is the controlling authority and may
not be ignored or altered by any court. Colon v. Fulton
County, 294 Ga. 93, 751 S.E.2d 307, 313 (Ga., 2013)
(“under our system of separation of powers[, courts do]
not have the authority to rewrite statutes”). Accordingly, we set a hearing on the requested temporary
injunctive relief on the 18th day of November, 2016.
Waiver under the Constitution
Article I, Section II, Paragraph IX (e) of the
Georgia Constitution provides that “[t]he sovereign
immunity of the state and its departments and
agencies can only be waived by an Act of the General
Assembly which specifically provides that sovereign
immunity is thereby waived and the extent of such
waiver.” Colon, 751 S.E.2d at 310. “This does not
mean, however, that the Legislature must use specific
“magic words” such as “sovereign immunity is hereby
waived” in order to create a specific statutory waiver
of sovereign immunity.” Id. “Because the General
Assembly is presumed to intend something by passage

App.44a
of [an] act, we must construe its provisions so as not
to render it meaningless.” Id.
Reading the RICO Act
This is case of first impression, in that no court has
read and analyzed the RICO Act to determine whether
its express provisions on injunctive relief, found at
OCGA 16-14-6(a&b), can be given meaning absent a
waiver of sovereign immunity. 751 S.E.2d at 310.
It is well-settled, rather, that the legislature may
waive, and in fact has waived sovereign immunity
through other statutory provisions. 751 S.E.2d at 310.
The question to be addressed, then, is does the
language of the Georgia RICO Act, OCGA 16-14-1 et
seq., specifically state such a waiver consistent with
Ga Const. Ga. Const. Art. I, Sec. II, Par. IX (e). Within
these constitutional parameters, it is the statute that
controls, since no court at any level has the power to
re-write the statutes in which the legislature has
expressed its clear intent, or to write the controlling
statutory language out of existence. Colon at 311-313.
Plaintiffs have advanced provisions of the RICO
Act, with great specificity and particularity, to show
how the Act expressly waives sovereign immunity.
The Attorney General has failed spectacularly to
address those specific provisions enacted by the
Legislature. Rather, the Attorney General has sought
to avoid them, while offering no statutory authority,
from the RICO statute or any other source, to counter
the specific provisions cited by Plaintiffs.
The test set forth in Colon follows established
rules of statutory construction in that all provisions
of a statute are assumed to have a meaning, and none

App.45a
of the provisions to be mere “surplusage.” Colon at
311. The RICO Act, furthermore, clarifies that its
remedial scheme is not based on a private tort duty
to any individual, but is predicated on “harm to the
state and its citizens.” OCGA 16-14-2(a). Moreover, it
requires that this scheme be “liberally construed” to
effect its remedial purposes, not narrowly restricted
as urged by the Attorney General. OCGA 16-14-2(b).
The key inquiry, for purposes of determining a
waiver of sovereign immunity, was set forth in Caldwell
v. State, 321 S.E.2d 704, 707, 253 Ga. 400 (1984)
(rejecting state official’s sovereign immunity defense
to civil RICO action). In the Georgia Supreme Court’s
Caldwell test, since RICO enterprises are specifically
defined to include “governmental entities,” at OCGA
16-14-3(3), the phrase “governmental entity” must be
substituted each time the statute references a RICO
enterprise.
Specific Authorization of Injunctive Relief
Under the Caldwell test, the Georgia RICO statute
states a crystal clear waiver of sovereign immunity
for injunctive relief against a RICO enterprise (OCGA
16-14-6(a&b)), and a RICO enterprise is specifically
defined to include governmental entities. OCGA 1614-3(3). It is difficult to imagine how a waiver for
injunctive relief could be more explicitly stated. By
the express terms of the statute, injunctive relief is
authorized against governmental entities.
That includes injunctive relief to rescind any
approval granted by a state agency, such as the Board
of Regent’s political quid pro quo appointment of former
Attorney General Sam Olens that Plaintiffs seek to
rescind. OCGA 16-14-6(a)(4). The statute also specif-

App.46a
ically authorizes the reorganization of a governmental
entity, such as the double switch in which Governor
Deal replaced the Attorney General and the Regents
replaced the former president of Kennesaw State with
the former Attorney General. OCGA 16-14-6(a)(3).
These express provisions, that provide for injunctive relief against the Board of Regents, also authorize
injunctive relief against the Governor. This relief is
available at OCGA 45-15-18.1
Tricoli is not controlling
The Tricoli opinion, contrary to the Attorney
General’s claims that it represents the final solution
on sovereign immunity, forever barring all claims
against the state, does not even address the issue of
sovereign immunity with respect to the injunctive
relief under the RICO Act sought by Plaintiffs. The
opinion does not examinee the statute at all. It merely
assumed, wrongly, that there is no waiver of the state’s
sovereign immunity possible outside of the Georgia
Tort Claims Act, OCGA 51-50-20 et seq. Tricoli v.
Watts, 336 Ga. App. 837, 840, 783 S.E.2d 475, 477
(2016). Since the injunctive relief sought by Plaintiffs
is explicitly authorized by statute, it cannot be assumed
1 Though a typographical error in the pleadings mis-cites this code
section, authorizing the Governor to appoint a special attorney
general to conduct an independent investigation where the Attorney
General can not or will not do so, as OCGA 45-1-8, the Attorney
General clearly has notice from the five letters addressed to the
Governor, to which the Attorney General responded refusing to
investigate in the Atlanta Journal Constitution, of the correct
citation and the contents of this code section. These letters
constitute Plaintiffs’ Exhibits 1-5 submitted in support of the
injunctive relief. Attorney General Sam Olens’ response to
Exhibit 5 is included in Plaintiffs’ Exhibit 7.

App.47a
away on some other grounds that do not apply to the
instant case. OCGA 16-14-3(3) & 16-14-6(a&b). Where
a statute is clear in its terms, the courts are prohibited
from re-writing the provisions enacted by the legislature. Colon at 310 “[w]here the language of a statute
is plain and unambiguous, judicial construction is
not only unnecessary but forbidden.” Moreover, this
action does not contain any discernable tort claims and
thus does not implicate the GTCA in any conceivable
way, making case law decided under the GTCA,
including Tricoli v. Watts,2 holding that a RICO claim
could not be used as an alternative to a tort claim,
inapposite. 335 Ga. App. at 340. Moreover, since
Tricoli does not address the issue of injunctive relief,
much less analyze the RICO statute for authority for
injunctive relief against the state, it cannot overcome
the clear language of the statute, which courts have
no power to alter or ignore. And because Tricoli does
not even address the relief clearly authorized by
statute that Plaintiffs seek in this case, it is not
binding on this Court.
Under these parameters, the Court finds, based
on the authority stated above, that the Georgia RICO
Act states an express waiver of sovereign immunity
for the injunctive relief Plaintiffs are requesting from
this Court. That is true, despite the absence of any
2 336 Ga.App. 837, 783 S.E.2d 475 (2016), cert denied November
7, 2016. The Court does take judicial notice that the Supreme
Court came out of adjournment early Monday morning, November
7, 2016, to issue an order denying certiorari in the Tricoli case
at 8:42, a.m., prior to the hearing scheduled in this cause at
9:30 a.m. the same morning and that the Attorney General’s
office was ready with the order in hand to present it to this
Court less than an hour after it was entered.

App.48a
explicit reference to sovereign immunity, both because
many provisions of the Act make no sense absent a
waiver of sovereign immunity and because provisions
of the Act quite explicitly authorize injunctive relief
against the State and State officials.
As Plaintiffs’ claims are not barred by sovereign
immunity, this cause shall be set for hearing on the
18th day of November, 2016.
So ordered, this _______ the day of________, 2016.
/s/ Tom Campbell
Judge Superior Court
Atlanta Judicial Circuit

App.49a

LETTER FROM STEPHEN HUMPHREYS TO
GEORGIA GOVERNOR BRIAN KEMP
(NOVEMBER 30, 2020)
STEPHEN F. HUMPHREYS PC
ATTORNEY AT LAW
PO Box 192
Athens, Georgia 30603
athenslaw@gmail.com
706 207 6982
November 30, 2020
The Honorable Brian Kemp
Office of the Governor
Suite 203, State Capitol
Atlanta, GA 30334
http://gov.georgia.gov/
Dear Governor Kemp:
I am writing to follow up my previous unanswered letters to you—dated June 31 and July 13,2
2019, and most recently on September 1, 20203—concerning my request that you exercise your authority
under OCGA § 45-15-18 to appoint a special investi1 For ease of reference, the letter is included at the following
link: https://drive.google.com/file/d/12eMnSL6cxmEYH8FLfpgr7u
Rf7Y3shexV/view?usp=sharing
2 For ease of reference the letter is included at the following
link: https://drive.google.com/file/d/1Z4OP-AqsBJToxcEYU70tdPrsNiOnBsi/view
3 For ease of reference, the letter is included at the following
link: https://drive.google.com/file/d/1LZJI2JtYAdXKoQf83Mcnjqz
UmECrmviB/view

App.50a
gator to look into documentation from state records
of a pervasive fraud scheme in the University System of
Georgia (USG), in which state officials have defrauded
the federal government of billions of dollars and
obstructed investigation of the fraud, through knowingly false statements and by intimidation and retaliation, extortion and bribery.
In the previous letters, we addressed evidence of
multi-billion-dollar fraud on the federal government
by state officials in the University System of Georgia,
the Department of Audits and Accounts (DOAA), and
most disturbingly, in the office of the Attorney
General. In particular, correspondence from the Attorney General’s office documents efforts to obstruct any
hearing or investigation in order to conceal the fraud.4
The regional accreditation agency, the Southern Association of Colleges and Schools (SACS), also appears
to have been complicit.
That is, in part, why faculty at Kennesaw State
University (KSU) filed an action in October 2016 to
block the USG Board of Regents from appointing
former Attorney General Sam Olens-to step down from
his post as Attorney General to take a USG position

4 We wrote two additional letters to you, requesting an independent
investigation of the USG based on additional evidence of criminal
fraud, obstruction of justice, and retaliation by Attorney General
against Denise Caldon Sorkness and Professor Dezso Benedek,
for which the USG and Attorney General claimed sovereign
immunity protection from any civil action based on the documented
and largely admitted RICO felonies. Instead of investigating
the evidence that state officials engaged in a pattern of criminal
conduct, the Attorney General has consistently defended criminal
enterprises in state government.

App.51a
as president of KSU—in violation of the Regents’ own
policies on presidential appointments.
The KSU faculty plaintiffs further alleged an illegal quid pro quo: Attorney General Olens blocked a
criminal investigation of the USG; the USG then
appointed Olens to a $500,000 a year job, as the sole
candidate considered, with no input from the affected
school, despite widespread public opposition at KSU.
Olens’ main qualification, at the time, appeared to be
the obstruction of any criminal investigation into
$10 million “gone with no explanation” at Georgia
Perimeter College (GPC)-$10 million that has never
been accounted for to this day, despite a special review
by the USG. We have since discovered that this was
part of a larger, systemic scheme of USG accreditation
fraud totaling billions of dollars in fedeal programs—
despite obstruction and knowing misrepresentations,
including knowing misrepresentations to the courts
in felony violation of OCGA § 16-10-20.1, both by
USG officials and the Attorney General.5

5 The USG financial fraud at GPC is documented at the following
links: fraudulent report to conceal misappropriation of $10 million
https://drive.google.com/file/d/16sfe2IG-zWDlj7ldMK6NAJbFUCW
gnNpI/view?usp=sharing; Annotation of the fraud in the report
https://drive.google.com/file/d/13KflAmaxl-tGv2lTvFnE-n9o4Lsrh
8hu/view?usp=sharing. The Attorney General’s obstruction is
documented, in part, at the following links: letter documenting
knowing misrepresentations to Tricoli’s counsel for the purposes
of depriving Tricoli of representation: https://drive.google.com/
file/d/1Q7q07YHq5F-JcpFVkUMxMXeIFewgllnJ/view?usp=
sharing. Analysis of Attorney General’s knowing misrepresentations to obstruct hearing and criminal investigation: https://drive.
google.com/file/d/1tBR4DzXVb6jOht1YSKPi-QKbiwjNShNs/view
?usp=sharing

App.52a
In addition to obstruction of the investigation of
this massive and systematic fraud, the USG’s appointment of Olens required the removal of the longtime
sitting KSU president, Dr. Daniel Papp. The evidence
shows, as alleged in the KSU action, that Dr. Papp’s
removal was procured by fraud and extortion, including
another knowingly misleading report by the USG,6
in which the USG’s own evasion of governing law
and Regents’ policy on presidential compensation7
was blamed on Dr. Papp, who at all times followed
USG direction. The USG misrepresentations about
Dr. Papp were falsely reported as fact by the Atlanta
Journal-Constitution. This destroyed Dr. Papp’s public
reputation, and intimidation against Dr. Papp continues to ensure that he does not mount any public
challenge. To cover the tracks of USG officials committing illegal acts, the Board of Regents subsequently changed the policies violated by the USG.8
6https://drive.google.com/file/d/1KCkY3M-LqjVuh6gtzMOdCw
F8JgW2WivH/view?usp=sharing
7 https://drive.google.com/file/d/1xsL6uxh4L_ZchyymJDamHUcp
Tm_QS3UO/view?usp=sharing
8 The Regents made after-the-fact amendments to BOR Policy
2.1 regarding the presidential reappointment process, which was
used to threaten Dr. Papp: https://drive.google.com/file/d/116UUE
iuGkEEDnf5t4VkbT-QlGZH4bXfa/view?usp=sharing
After the fact changes were also made to BOR Policy 2.8, which
the USG violated by systematically transferring responsibility
for paying Dr. Papp’s salary and benefits to the KSU Foundation despite the prior legal prohibition. https://drive.google.com/
file/d/1ebQldHzt5weTfzIO212YDGXX0NprLlum/view?usp=sharing
These violations of the policy in place at the time were confirmed
in the USG report that purportedly places blame on Dr. Papp.
It remains to be determined whether the Atlanta Journal-Con-

App.53a
Dr. Papp was threatened with retaliation if he
tried to block his termination-to prevent him from
seeking the statement of charges and hearing to which
he was entitled under BOR policy 2.4.3.9 In particular, USG Vice Chancellor John Fuchko threatened
Dr. Papp, five days before the Regents’ scheduled
meeting, that if Dr. Papp did not agree to retire early,
the Board of Regents would simply not reappoint him
at its May 2016 meeting.
This raises the question how USG staff could
speak with such confidence about such a future decision
to terminate Dr. Papp, despite the absence of any
actual wrongdoing the USG was willing to charge at a
hearing. The Board of Regents members are appointed
by the Governor, purportedly as independent decision-makers who are not answerable or dictated to
by the USG staff. This coercive pressure was part of
a scheme to deprive Dr. Papp of the hearing to which
he was entitled in such an involuntary separation, a
hearing that might delve into the misconduct of the
USG and Attorney General.10
These documented claims in the KSU action
were laid out in successive pleadings over the course
of more than a year. The Attorney General appointed
to replace Olens, Chris Carr, never responded to the
KSU action, including these allegations of criminal
obstruction, evidence tampering, bribery and extortion
stitution failed to read that intentionally misleading USG
report carefully, and was duped by it, or was knowingly complicit
in the misrepresentations.
9 This policy has since been renumbered and is now BOR 2.5.3.
10 https://creativeloafing.com/content-470581-outlandish-conspiracy
-theories-timeline-of-the-phantom-case-at

App.54a
—the same as Carr never filed a responsive pleading
to the motion to set aside the judgment in the Tricoli
action when it was discovered what Olens’ obstruction
was concealing, the multi-billion-dollar accreditation
fraud on the federal government.11
Though the Attorney General never responded
to the documented KSU allegations, trial judge Tom
Campbell also failed to respond, for more than a
year, to repeated motions for default and pleadings
introducing additional evidence of fraud by the USG
and obstruction by the Attorney General. Finally, at
the time growing controversy forced Olens to leave
KSU, a year after the action to block his illegal
appointment was filed, Campbell denied relief in the
uncontested action, in a one-sentence order with no
explanation.
The Georgia Court of Appeals and Supreme Court
both denied any review of Carr and Campbell’s
actions, or rather inaction. In particular, the Georgia
Supreme Court denied review of the KSU action,
ignoring the fact that at least five of the nine justices
should have been disqualified by conflicts of interest,12
as admitted in the related Tricoli action.13
11 Chris Carr has never filed any response to the pleading in
the Tricoli alleging and documenting the USG’s systematic
fraud scheme on the federal government—though it was filed
on April 1, 2019. The KSU action was first filed on October 31,
2016, and Chris Carr has yet to file a responsive pleading, over
four years later.
12 Fulton County Daily Report, June 24, 2020: https://drive.google
.com/file/d/1Hl7XQj5aMqkBJQ_lXvZqTRfZmnUumvsL/view?usp
=sharing
13 This raises a serious separate issue, as one of the conflicted

App.55a
Why so much effort to conceal the wrongdoing in
the USG, and to place Olens illegally at the head of
KSU? Concealing billions in USG fraud is sufficient
reason. In light of recent claims of election fraud, we
will separately address the destruction of evidence of
election interference that occurred at KSU during
Olen’s brief, illegal appointment.
If the USG and Attorney General continue to
hide behind claims of sovereign immunity protection
for bribery, extortion, and other racketeering offenses
in state government, including destruction of evidence
of election fraud—as were documented at KSU, but
to which AG Chris Carr never responded. That is all
the more reason to conduct an independent investigation of the evidence filed with the KSU complaint.
Thank you for your time and attention to these
important matters.
Sincerely,

Stephen F. Humphreys

justices who illegally participated in the KSU denial has now
left the bench, leaving a vacant seat for which you cancelled the
election and stand poised to name another state supreme court
justice, though the Georgia Constitution calls for the justices to
be elected by popular vote. https://creativeloafing.com/content470370-OUTLANDISH-CONSPIRACY-THEORIES-The-paradoxof-conservative-judicial-activism

App.56a
MEMORANDUM TO THE GEORGIA BAR
REGARDING FIRST AMENDMENT RETALIATION
(AUGUST 1, 2018)
To: Ken Hodges, President, Georgia Bar Association
From: Stephen Humphreys
Date: August 1, 2018
re: Government Retaliation in Violation of the First
Amendment
Ken, as we discussed, there is no more serious
First Amendment issue in the country today than
the one raised by government retaliation, in the form
of legal action against an attorney bringing legal
action against the government for corruption.
In fact, the US Supreme Court just issued a
decision that the First Amendment trumps all other
legal considerations to prohibit such government
retaliation. Lozman v. Riviera Beach, 568 US 115
(June 18, 2018).
There is surely no more pressing issue facing
attorneys as a group than whether government can
take punitive action against them for attempting to
hold government accountable. The Crown would
have surely loved to slap Jefferson and Adams down
in the same manner.
Background of the Retaliation
As you are also aware from our 2015 meeting,
I have filed a series of fraud and RICO actions
against the University System of Georgia (USG) and
Attorney General (AG). The initial action arose from
a failed attempt to revoke the tenure of a UGA

App.57a
professor in which we caught the Attorney General
red-handed, as documented in the hearing record,
trying to conceal exculpatory evidence and knowingly
putting witnesses on the stand to testify to manufactured evidence.
Subsequent cases make claims for knowing
falsification and misrepresentation of USG finances
to conceal theft of millions in taxpayer dollars,
obstruction of criminal investigations and evidence
tampering by the Attorney General (again).22
As a result, I have been engaged in a yearslong legal dispute with the state—with the state
contending that state officials enjoy sovereign
immunity against RICO claims for criminal acts. So
far, the AG and the courts have evaded and ignored
the contrary legal authority I have presented, in the
fight against government corruption, that the RICO
statute expressly authorizes a civil action against
state officials and state agencies.23 The only court to
ever address the question, the Georgia Supreme
Court in 1984, decided the issue in my favor, holding
that the statute expressly authorized a civil RICO
22 Evidence shows that this obstruction, particularly attempts
to conceal evidence and fail to produce documents in response
to Open Records requests, continues up to the present under
AG Chris Carr, who brought the motion for sanctions.
23 E.g., OCGA 16-14-3(3) (RICO enterprise defined to include
“governmental entities”); OCGA 16-14-6(a&b) (injunctive relief
authorized against government, including to rescind state
agency actions); OCGA 16-14-4(b) (statute can be violated by
employees of “governmental entities”); OCGA 16-14-6(c) (damages
authorized against violators of the statute); OCGA 16-14-2
(RICO statute protects the state from harm, not just individual
plaintiffs).

App.58a
claim against State Labor Commissioner Sam Caldwell.24 The AG and the courts have also ignored this
precedent, which has never been mentioned in any legal
brief or court decision upholding sovereign immunity.
I am now being subjected to sanctions because I
refused to sit down and shut up and go along with
substituting Georgia politics for the rule of law. For
that, the state is attacking the messenger.
The motion for sanctions the Attorney General
brought against me—for continuing to argue that the
law as written does not afford sovereign immunity
protection to state officials committing criminal RICO
predicate acts-should be extremely troubling to the
entire legal profession. It is also illegal, unconstitutional, and even potentially criminal on several levels:
Violation of the Sanctions Statute
At the most obvious level, the order requiring
me to pay the state’s legal fees violates the very
sanctions statute under which it was ordered. The
statute invoked by the AG to impose sanctions contains
a safe harbor provision that specifically protects me
as the first private attorney seeking to bring a civil
RICO action against state officials. OCGA 9-15-14(c).
The statute, in relevant part, expressly states:
“No attorney . . . shall be assessed attorney’s fees as
to any claim . . . asserted by said attorney . . . in a
good faith attempt to establish a new theory of law in
Georgia if such new theory of law is based on some
recognized precedential or persuasive authority.”

24 Caldwell v. State, 253 Ga. 400 (1984).

App.59a
The claims I asserted in Tricoli v. Watts are
supported by the express language of the RICO
statute (which no court has reviewed, as yet) and the
controlling Georgia Supreme Court precedent in
Caldwell (the Georgia Supreme Court declined to
hear the Tricoli case and compare its own Caldwell
decision).
Though I argued its protection, the AG and the
court both merely ignored the safe harbor provision
of OCGA 9-15-14(c)—in violation of constitutional
due process.
Violation of the Anti-SLAPP Statute
In response to the AG’s motion for sanctions,25 I
filed a motion to strike or dismiss the motion for
sanctions—as specifically authorized by the Georgia
Anti-SLAPP statute, which expressly protects the
First Amendment right to petition the courts and
bring attention to issues of public importance. OCGA
9-11-11.1(a).
When a motion for protection from retaliation is
filed under this statute, the court is required to
address the First Amendment retaliation issue
within 30 days—and the court is explicitly prohibited
from taking any further action until the matter is
considered and a final resolution is reached. OCGA
9-11-11.1(d).
By contrast, Judge Coursey ignored the antiSLAPP motion and went ahead and entered a sanctions
25 The motion for sanctions was based on my action to set aside
a prior judgment based on due process violations and new
evidence of fraud by defendants affecting the judgment, as
expressly authorized by statute. OCGA 9-11-60(a & d).

App.60a
order 15 days after the anti-SLAPP motion was filed.
As with the sanctions statute, all the procedural and
substantive provisions of the anti-SLAPP statute were
simply ignored—again, in violation of constitutional
due process.
Evasion of the First Amendment
The evasion of anti-SLAPP statute is an evasion
of the First Amendment values the statute embodies
—as mandated by the US Supreme Court in Lozman
v. Riviera Beach.
The AG, however, has actually tried to claim that
the anti-SLAPP statute, and by implication the First
Amendment, does not apply to the AG taking punitive
action against an attorney raising issues of public
importance in a court proceeding and demanding that
the controlling statutes, constitutional provisions,
and case law precedents be considered by the courts
(which have evaded them, instead).
The Georgia Court of Appeals refused to hear an
appeal of the sanctions order, despite the clear statutory violations, and despite the alleged infringement
of First Amendment rights that Lozman v Riviera
Beach prohibited.
Suppression of Related Evidence
At the same time that I am being sanctioned for
supposedly bringing an action without evidentiary
support, evidence of the wrongdoing underlying the
legal action is being suppressed.
The same judge who entered the sanctions order
also quashed evidentiary subpoenas without legal
authority and barred witness testimony at the sanc-

App.61a
tions hearing. At the same time, the USG and AG have
failed to produce relevant documents in response to
Open Records requests.
The seriousness of this matter goes well beyond
the illegality of the sanctions order. It also implicates
serious violations of rules of legal ethics and canons of
judicial conduct. Far worse than that, the continuing
efforts to suppress and conceal evidence have potential
criminal implications under the Open Records, evidence
tampering, and knowingly false representations statutes.26
Retaliation and Intimidation
All these blatant evasions of the governing law
are indicia of the retaliatory motive and intent to
intimidate.
Moreover, this sanctions order is not the first
state government attempt to retaliate against me for
pursuing claims against the state government.
The state first tried to bring claims for damages
against me, for filing a mandamus petition, under
OCGA 9-15-15. As a reading of the statute clearly
shows, it clearly prohibits bringing claims in the
context of a mandamus action.27
After that state effort at intimidation failed for
clear illegality, then-AG Sam Olens sought a federal
26 OCGA 50-18-74, 16-10-94 & 16-10-20.
27 OCGA 9-15-15(a) When any civil action is brought against a
judicial officer, other than an action for . . . mandamus, . . .

App.62a
court order to bar me from bringing claims against
the AG in the state and federal courts of Georgia,
supposedly for defying court orders. The orders in
question had been reversed and vacated.
I have publicly criticized the judiciary for relying
on absurd originalist interpretations of English
Common law, and even Confederate law, to expand
sovereign immunity to shield the state from any
accountability.
The state government is now retaliating against
me with an illegal sanctions order for exercising that
First Amendment right.
Conclusion
Concerted government punitive action against
any attorney adverse to the state should give great
pause to the entire legal profession. When the
Attorney General advocates, and the courts allow,
the protections enacted by the legislature to be
bypassed, that is unseemly at best. The prospect is
even worse where it may involve concealing evidence
of criminal conduct by state officials.
But it is not only attorneys who are placed at risk
when the alleged retaliation enforces the contention
that state officials enjoy sovereign immunity and
cannot be held accountable for criminal conduct that
harms the state itself.28 This is a fundamental threat
to the rights and well-being of all citizens. If this
28 The RICO statute addresses “the increasing extent to which
the state and its citizens are harmed as a result of the activities
of these [increasingly sophisticated criminal] elements. OCGA
16-14-2(a).

App.63a
pernicious doctrine is allowed to take root in Georgia,
it is a threat to the republic.
This is a serious matter that cries out for the
State Bar of Georgia to review and take a position.

Stephen F. Humphreys

